                 Implementation of the Collection Field
              Function Consultation Initiative Was Carefully
                Coordinated, but Some Aspects Could Be
                               Enhanced

                                  November 2004

                       Reference Number: 2005-30-011




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   November 18, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Implementation of the Collection Field
                                    Function Consultation Initiative Was Carefully Coordinated, but
                                    Some Aspects Could Be Enhanced (Audit # 200330040)


      This report presents the results of our review of implementation of the Collection Field
      function (CFf) 1 Consultation Initiative. The CFf Consultation Initiative is a product of the
      Small Business/Self-Employed (SB/SE) Division’s Collection Reengineering effort. The
      overall objective of this review was to determine whether the Internal Revenue Service
      (IRS) has taken effective steps to ensure the successful nationwide implementation of
      the CFf Consultation Initiative.
      In summary, implementation of the Consultation Initiative was coordinated carefully and
      supported by a formalized training program. Approximately 500 IRS Collection function
      managers nationwide were trained in 33 classes during January and February 2004.
      The training classes covered the Consultation Initiative in detail through 7 instructional
      modules administered over a 3-day period.
      Business measures used by the IRS to monitor Collection function data trends have
      indicated a slight decline in the percentage of overage cases residing in CFf inventory in
      the three Area Offices we reviewed since implementation of the Consultation Initiative.
      However, due to the sometimes slow nature of Collection function inventory turnover,
      the true effects of the Consultation Initiative cannot yet be fully evaluated. For example,

      1
        The CFf is located in the Area Offices and consists of revenue officers who personally contact taxpayers to collect
      delinquent accounts or secure unfiled returns. The Small Business/Self-Employed (SB/SE) Division Compliance
      Field function is geographically organized into 15 Area Offices serving taxpayers nationwide and 1 Area Office
      serving international taxpayers. The 16 SB/SE Division Compliance Field function Area Offices are further divided
      into geographically based Territories. Each of these Territories is headed by a Territory manager.
                                                         2

many of the cases in our review of a sample of 115 open Collection function cases had
already been in process for some time; thus, initial casework had not been through the
complete consultation process. Until Collection function cases have undergone the
entire consultation process, business results measuring data trends will not capture the
full effects of the Consultation Initiative.
Also, the overall effectiveness of the Consultation Initiative could be improved by
ensuring milestones and completion dates for required collection activities are clearly
identified and case plans of action are consistently prepared. In 20 percent of the
consultations reviewed, the next milestone was unclear and/or the case did not have a
current plan of action at the time of the consultation.
We recommended the Director, Collection, SB/SE Division, continue to measure the
impact of the Consultation Initiative on key business measures, including the
percentage of overage cases in Collection function inventory, as well as continue to
measure its impact on case quality using the Collection Quality Management System.2
We also recommended the Director, Collection, SB/SE Division, clarify existing
procedures for conducting group manager case consultations to clearly require that both
the estimated completion dates of milestones and the date of the next follow-up
consultation be plainly documented in all cases. In addition, the feasibility of developing
a provision to facilitate documentation of expected completion dates within the ENTITY
Management Information System (ENTITY)3 milestone menu should be evaluated.
Finally, we recommended the Director, Collection, SB/SE Division, reemphasize
existing procedures regarding the need for managers to document milestones and
revenue officers to timely prepare a plan of action whenever a Collection function case
cannot be closed on the first contact.
Management’s Response: IRS management agreed with the recommendations
presented in our report. Management will continue to measure the effectiveness of the
Consultation Initiative using indicators such as the percentage of overage cases in
Collection function inventory. In addition, management will update the Internal Revenue
Manual (IRM) to instruct group managers to clearly document the estimated completion
dates of milestones and follow-up consultations on the ENTITY calendar. Management
will also update the Integrated Collection System4 to include an action completion date
field. Finally, management will update the IRM to instruct group managers to ensure
that revenue officers are determining and documenting action plans. Management’s
complete response to the draft report is included as Appendix IV.



2
  An analysis of closed Collection function cases reviewed for technical accuracy of case work, the results of which
are used by IRS management to determine the strengths and weaknesses in the quality of work performed by
Collection function employees.
3
  An automated system used at the group, Territory, and Area Office levels for case management, report
compilation, and management information. The ENTITY enables revenue officers and group managers to manage
their respective inventories.
4
  An automated system used to control and monitor delinquent cases assigned to revenue officers in the IRS field
offices.
                                           3

Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
  Implementation of the Collection Field Function Consultation Initiative Was Carefully
                 Coordinated, but Some Aspects Could Be Enhanced




                                                  Table of Contents


Background ............................................................................................... Page 1
Implementation of the Consultation Initiative Was Coordinated
Carefully and Supported by a Formalized Training Program..................... Page 3
Overage Inventory Has Declined Slightly Since the Introduction
of the Consultation Initiative ...................................................................... Page 4
         Recommendation 1: .........................................................................Page 5

Consultation Effectiveness Could Be Improved by Ensuring
Milestones Are Clearly Identified and Case Plans of Action Are
Consistently Prepared. .............................................................................. Page 6
         Recommendation 2: .........................................................................Page 7
         Recommendation 3: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
   Implementation of the Collection Field Function Consultation Initiative Was Carefully
                  Coordinated, but Some Aspects Could Be Enhanced

                                  In early 1998, the Internal Revenue Service (IRS)
Background
                                  Commissioner outlined a program to modernize the IRS.
                                  As part of this effort, a new organizational structure was
                                  established to replace the previous function-based structure.
                                  The new IRS organizational structure is based on four
                                  groupings of taxpayers with similar customer needs. The
                                  Small Business/Self-Employed (SB/SE) Division began
                                  operations in October 2000 to service one of these groups.
                                  To improve the overall effectiveness and efficiency of its
                                  operations, the SB/SE Division initiated the Collection
                                  Reengineering effort.
                                  The Collection Field function (CFf)1 Consultation Initiative
                                  is a product of the SB/SE Division’s Collection
                                  Reengineering effort. The Consultation Initiative was
                                  designed to improve CFf business results by preventing long
                                  lapses in case activity, resulting in quicker turnover of
                                  Collection function case inventory. The Consultation
                                  Initiative incorporates a process of regular meetings
                                  (consultations) between group managers and revenue
                                  officers, focusing on workload management and case
                                  resolution.
                                  The CFf Consultation Initiative was piloted in the Boston
                                  Area Office during the period September 2002 through
                                  March 2003. One-half of the Territories2 in the Boston Area
                                  Office were selected to test consultation procedures, with
                                  the remaining Territories acting as control groups and
                                  continuing to process their workloads as normal. During
                                  this 6-month evaluation period, the pilot test groups only
                                  slightly outperformed control groups in reducing the amount
                                  of overage cases (cases assigned to the CFf for more than
                                  15 months) in their inventory, and this difference was not
                                  considered statistically significant. However, management
                                  did note an improvement in the timeliness of initial taxpayer


                                  1
                                    The CFf is located in the Area Offices and consists of revenue officers
                                  who personally contact taxpayers to collect delinquent accounts or
                                  secure unfiled returns. The SB/SE Division Compliance Field function
                                  is geographically organized into 15 Area Offices serving taxpayers
                                  nationwide and 1 Area Office serving international taxpayers.
                                  2
                                    The 16 SB/SE Division Compliance Field function Area Offices are
                                  further divided into geographically based Territories. Each of these
                                  Territories is headed by a Territory manager.
                                                                                                   Page 1
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced

                               contacts and a reduction in extended periods of case
                               inactivity. Based on these results, the CFf Consultation
                               Initiative was scheduled for nationwide deployment.
                               Implementation of the Consultation Initiative began in
                               January 2004 and was completed in April 2004.
                               The CFf Consultation Initiative emphasizes routine
                               managerial involvement in cases and efficient case
                               resolution. The primary element of the Consultation
                               Initiative consists of monthly group manager and revenue
                               officer meetings to consult on a portion of each revenue
                               officer’s case inventory. Cases undergo consultations
                               within 60 days of assignment to a revenue officer, at
                               prescheduled dates following significant case milestones
                               (such as seizures3 or levies4), and as the case is expected to
                               be near completion. Consultations are scheduled, and
                               established milestones documented, using the calendar
                               function within the ENTITY Management Information
                               System (ENTITY).5
                               This review was performed at the CFf Consultation
                               Initiative project office in Worcester, Massachusetts, and in
                               the Detroit, Michigan; Nashville, Tennessee; and
                               Los Angeles, California, SB/SE Division Compliance Area
                               Offices during the period September 2003 through
                               July 2004. The audit was conducted in accordance with
                               Government Auditing Standards. Detailed information on
                               our audit objective, scope, and methodology is presented in
                               Appendix I. Major contributors to the report are listed in
                               Appendix II.




                               3
                                 When a taxpayer refuses to pay delinquent taxes, the IRS has authority
                               to take the taxpayer’s funds or property for the payment of tax. This
                               action is commonly referred to as a “seizure.”
                               4
                                 When a taxpayer refuses to pay delinquent taxes, the IRS has authority
                               to work directly with financial institutions and other third parties to
                               seize the taxpayer’s assets. This action is commonly referred to as a
                               “levy.”
                               5
                                 An automated system used at the group, Territory, and Area Office
                               levels for case management, report compilation, and management
                               information. The ENTITY enables revenue officers and group
                               managers to manage their respective inventories.

                                                                                               Page 2
    Implementation of the Collection Field Function Consultation Initiative Was Carefully
                   Coordinated, but Some Aspects Could Be Enhanced

                                   Following the completion of the CFf Consultation Initiative
Implementation of the
                                   pilot in March 2003, the Area 1 Pilot Management Team
Consultation Initiative Was
                                   maintained responsibility for the Initiative and began to act
Coordinated Carefully and
                                   as the lead project coordinators in the nationwide rollout.
Supported by a Formalized
                                   The CFf Consultation Initiative Team, consisting of the
Training Program
                                   Area 1 Director, a Territory manager, and four group
                                   managers, was responsible for directing and monitoring the
                                   implementation of the Consultation Initiative nationwide.
                                   To accomplish this, the group provided ongoing guidance to
                                   Coordinating Territory managers, established a Deployment
                                   Schedule monitoring the completion of key aspects of the
                                   rollout, and trained the instructors who later provided
                                   Consultation Initiative training to the group and Territory
                                   managers in their respective Area Offices.
                                   A Coordinating Territory manager was appointed in
                                   each Area Office to oversee implementation of the
                                   Consultation Initiative within that Area Office
                                   A Territory manager was selected to represent each Area
                                   Office within the Consultation Initiative. Coordinating
                                   Territory managers were responsible for identifying
                                   managers to act as instructors for the Consultation Initiative
                                   training delivered within their Area Offices, conducting
                                   conference calls as necessary with participants in their Area
                                   Offices, and monitoring the completion of mandatory
                                   Initiative introductory meetings at the group level.
                                   Coordinating Territory managers also received information
                                   from members of the CFf Consultation Initiative Team and
                                   distributed the information to the responsible managers.
                                   Training was provided to responsible Collection function
                                   managers nationwide
                                   Members of the CFf Consultation Initiative Team trained
                                   managers in the Boston, Los Angeles, and Detroit Area
                                   Offices during the fourth quarter of Fiscal Year (FY) 2003.
                                   Selected managers from those Area Offices then acted as
                                   instructors and subject matter experts for the remaining
                                   13 Area Offices. Approximately 500 managers nationwide
                                   were trained in 33 classes during January and
                                   February 2004. The training classes covered the
                                   Consultation Initiative through 7 instructional modules
                                   administered over a 3-day period. The topics of instruction
                                   included the goals of the Consultation Initiative, scheduling
                                                                                           Page 3
      Implementation of the Collection Field Function Consultation Initiative Was Carefully
                     Coordinated, but Some Aspects Could Be Enhanced

                                     consultations using the ENTITY, and consultation
                                     documentation requirements. Generally, managers we
                                     interviewed evaluated the training they received positively.
                                     We attended two of the training sessions and determined
                                     that the training was appropriate and beneficial.
                                     The Consultation Initiative was designed to prevent long
Overage Inventory Has Declined
                                     lapses in case activity and increase turnover of cases in
Slightly Since the Introduction of
                                     revenue officer inventory, with the goal of ultimately
the Consultation Initiative
                                     reducing the occurrence of overage Collection function
                                     cases. The design of the Initiative emphasized conducting
                                     consultations on older cases at the outset of the Initiative.
                                     While it was expected that managers consult on all eligible
                                     cases in Collection function inventory within the first
                                     60 days of the Initiative, all eligible cases over 180 days old
                                     were scheduled for consultation within the first 30 days of
                                     the Initiative.
                                     Figure 1 shows that business measures used by the IRS to
                                     monitor Collection function data trends reflect a slight
                                     decline in the percentage of overage CFf cases in inventory
                                     involving delinquent taxpayer accounts or investigations
                                     since the beginning of Calendar Year 2004 in the three Area
                                     Offices we reviewed. However, due to the sometimes slow
                                     nature of Collection function inventory turnover, the true
                                     effects of the Consultation Initiative cannot yet be fully
                                     evaluated. Many cases we reviewed, for example, had been
                                     in process for some time; thus, initial casework had not been
                                     through the complete consultation process. Until Collection
                                     function cases have undergone the entire consultation
                                     process, business results measuring data trends will not
                                     capture the full effects of the Consultation Initiative.




                                                                                             Page 4
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced

                                                                      Figure 1: Overage Case Trends in Selected Areas
                                                                 35




                                                                 30




                                   P ercen tage of In ven tory
                                                                 25
                                                                                                                                          Area 06
                                                                                                                                          Area 08
                                                                                                                                          Area 16
                                                                 20




                                                                 15




                                                                 10

                                                                         01/04     02/04     03/04     04/04     05/04   06/04    07/04
                                                                                                      Month

                               Source: SB/SE Division Compliance Area Offices 06, 08, and 16
                               FY 2004 Enterprise Field Collection Fiscal Year Reports.

                               Similarly, an ongoing review by management of the impact
                               of the Consultation Initiative on case quality using the
                               Collection Quality Management System6 (CQMS) has yet to
                               yield any definitive trends. This review began in
                               January 2004 and was scheduled to provide results through
                               September 2004. Long-term key business measures and
                               case quality trend information are critical to the effective
                               monitoring and reliable assessment of the Consultation
                               Initiative.
                               Recommendation

                               1. The Director, Collection, SB/SE Division, should
                                  continue to measure the impact of the Consultation
                                  Initiative on both key business measures, including the

                               6
                                An analysis of closed Collection function cases reviewed for technical
                               accuracy of case work, the results of which are used by IRS
                               management to determine the strengths and weaknesses in the quality of
                               work performed by Collection function employees.
                                                                                                                                 Page 5
      Implementation of the Collection Field Function Consultation Initiative Was Carefully
                     Coordinated, but Some Aspects Could Be Enhanced

                                         percentage of overage cases in Collection function
                                         inventory, and case quality using the CQMS.
                                     Management’s Response: Indicators are currently being
                                     identified to gather data generated from the CQMS and
                                     other sources. IRS management will continue to use
                                     indicators such as overage, management direct time, lack of
                                     case activity, and time involved from case receipt to closure
                                     to determine the effectiveness of the Consultation Initiative.
                                     A primary component of the CFf Consultation Initiative is a
Consultation Effectiveness Could
                                     determination by Collection function group managers and
Be Improved by Ensuring
                                     revenue officers of the next milestone that needs to be
Milestones Are Clearly Identified
                                     accomplished to resolve a particular case and an estimate of
and Case Plans of Action Are
                                     the completion date for this milestone. The next
Consistently Prepared
                                     consultation should then be scheduled based on this date.
                                     Milestones include, for example, a levy, an account
                                     adjustment, or a determination that the account is not
                                     currently collectible. However, the procedures also allow
                                     the manager the flexibility of scheduling the follow-up
                                     consultation at any time up to 120 days after the first
                                     consultation.
                                     Another key element of case resolution is a plan of action,
                                     prepared by the revenue officer, outlining the manner in
                                     which the case will be resolved. IRS procedures require the
                                     revenue officer to prepare a plan of action whenever a case
                                     is not resolved on the first contact with the taxpayer.
                                     We selected 115 consultation cases from the 3 Area Offices
                                     we visited. In 23 (20 percent) of the 115 consultations
                                     reviewed, the next milestone was unclear and/or the case did
                                     not have a current plan of action at the time of the
                                     consultation. In addition, although all the cases reviewed
                                     had a documented date for the next scheduled consultation,
                                     the estimated completion date of the next key milestone was
                                     generally not separately documented. The next consultation
                                     was scheduled within an average of 71 days in the cases we
                                     reviewed; however, 20 (17 percent) of the 115 cases had
                                     follow-up consultations scheduled 100 or more days later.
                                     The documentation of milestones is supported by a menu
                                     within the ENTITY; however, managers did not always use
                                     the menu or clearly document the next milestones within the
                                     ENTITY in some other way. In addition, the milestone

                                                                                            Page 6
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced

                               menu does not contain a provision or prompt to facilitate the
                               documentation of expected completion dates for milestones
                               selected.
                               The effectiveness of the Consultation Initiative could be
                               weakened when a case milestone is not documented or the
                               estimated completion date of the milestone is unclear. Not
                               separately documenting the milestone completion date is
                               especially problematic in cases for which the manager elects
                               to establish a more lengthy follow-up consultation date.
                               Similarly, the Collection function case plan of action
                               prepared by the revenue officer is a key element of effective
                               management. Not having a current plan of action could
                               create the risk that, instead of consulting with the group
                               manager on planned actions, a revenue officer will simply
                               rely on the group manager to direct case resolution.

                               Recommendations

                               The Director, Collection, SB/SE Division, should:
                               2. Clarify existing procedures for conducting group
                                  manager case consultations to clearly indicate a
                                  requirement that both the estimated completion dates of
                                  milestones and the date of the next follow-up
                                  consultation be plainly documented in all cases. In
                                  addition, the feasibility of developing a provision to
                                  facilitate documentation of expected completion dates
                                  within the ENTITY milestone menu should be
                                  evaluated.
                               Management’s Response: The Internal Revenue Manual
                               (IRM) is being updated to instruct group managers to ensure
                               initial consultations, follow-up consultations, and estimated
                               completion dates of milestones are clearly documented on
                               the ENTITY calendar.
                               The system for recording the reminder information for the
                               Consultation Initiative on the Integrated Collection System
                               (ICS)7 is scheduled for implementation in May 2005. The
                               ICS will include an “Action Completion Date” field.

                               7
                                An automated system used to control and monitor delinquent cases
                               assigned to revenue officers in the IRS field offices.
                                                                                            Page 7
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced

                               3. Reemphasize existing procedures regarding the need for
                                  managers to document milestones and for revenue
                                  officers to timely prepare a plan of action whenever a
                                  Collection function case cannot be closed on the first
                                  contact.
                               Management’s Response: Revenue officers were provided
                               an update of the IRM which reemphasizes the need to
                               maintain and update plans of action in their case histories.
                               The IRM is also being updated to instruct group managers
                               to ensure that revenue officers are determining and
                               documenting action plans, setting deadline dates for
                               taxpayers, as well as establishing specific target dates for
                               actions. The group managers are instructed to clearly
                               document the dates in their ENTITY calendar for referral
                               during subsequent consultations.




                                                                                      Page 8
      Implementation of the Collection Field Function Consultation Initiative Was Carefully
                     Coordinated, but Some Aspects Could Be Enhanced

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service has
taken effective steps to ensure the successful nationwide implementation of the Collection Field
function (CFf)1 Consultation Initiative.
To accomplish this objective we:
I.        Determined whether the CFf Consultation Initiative project office provided effective
          oversight to ensure the successful implementation of the CFf Consultation Initiative.

          A. Reviewed the methodology used by the project office to monitor the progress of the
             implementation and ensure any ongoing problems were timely identified and surfaced
             for action.
          B. Ascertained whether timely and comprehensive training regarding the CFf
             Consultation Initiative was provided to the CFf group managers nationwide.
II.       Ascertained whether the CFf Consultation Initiative was implemented as intended.
          A. Interviewed four randomly selected group managers and two Territory2 managers in
             each of three judgmentally selected Area Offices and determined whether they
             experienced any difficulties in implementing the CFf Consultation Initiative.
             Territories were selected randomly in order to infuse a more unbiased approach
             into case selection methodology. Selected Territories were chosen from among
             13 Territories in the Detroit Area Office, 12 Territories in the Nashville Area Office,
             and 9 Territories in the Los Angeles Area Office.
          B. Reviewed a judgmental sample of 115 cases with consultations, selected from the
             Detroit, Los Angeles, and Nashville Area Offices, and determined whether case
             milestones were developed and estimated completion dates were established during
             the consultations. We used judgmental sampling for both Steps II.A. and II.B. to
             allow for the early, onsite review of recently completed consultations within the
             constraints of the staggered implementation of the Consultation Initiative and our
             available staffing. There were 36,633 taxpayers with delinquent accounts and
             16,267 taxpayers with delinquent return investigations assigned to the 3 selected Area
             Offices at the time we began our onsite reviews.

1
  The CFf is located in the Area Offices and consists of revenue officers who personally contact taxpayers to collect
delinquent accounts or secure unfiled returns. The Small Business/Self-Employed (SB/SE) Division Compliance
Field function is geographically organized into 15 Area Offices serving taxpayers nationwide and 1 Area Office
serving international taxpayers.
2
  The 16 SB/SE Division Compliance Field function Area Offices are further divided into geographically based
Territories. Each of these Territories is headed by a Territory manager.
                                                                                                             Page 9
   Implementation of the Collection Field Function Consultation Initiative Was Carefully
                  Coordinated, but Some Aspects Could Be Enhanced

III.   Determined whether a reliable measurement process was developed to evaluate the
       effectiveness of the CFf Consultation Initiative process.
       A. Analyzed the completeness and reliability of the measurement system developed to
          assess the impact of the CFf Consultation Initiative process on Collection function
          case quality and timeliness.
       B. Determined whether the CFf Consultation Initiative project team established any
          short-term or long-term measures to help guide its evaluation of the impact of the CFf
          Consultation Initiative process.




                                                                                        Page 10
   Implementation of the Collection Field Function Consultation Initiative Was Carefully
                  Coordinated, but Some Aspects Could Be Enhanced

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
Anthony J. Choma, Audit Manager
James S. Mills, Jr., Lead Auditor
James D. Dorrell, Senior Auditor
Seth Siegel, Auditor




                                                                                       Page 11
  Implementation of the Collection Field Function Consultation Initiative Was Carefully
                 Coordinated, but Some Aspects Could Be Enhanced

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications and Liaison, Small Business/Self-Employed Division
SE:S:CL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 12
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced

                                                                         Appendix IV


                 Management’s Response to the Draft Report




                                                                                Page 13
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced




                                                                                Page 14
Implementation of the Collection Field Function Consultation Initiative Was Carefully
               Coordinated, but Some Aspects Could Be Enhanced




                                                                                Page 15
